Supreme Court, U.S.
FILED

WAIVER

OCT 1 1 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-354

COLLEEN A. EASTERDAY

v.

ESTATE OF MICHAEL J. EASTERDAY

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

E Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member:
Signature
Date(Type or print) Name

ROBERT J. DOUGHER, ESQUIRE
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

DOUGHER & RICE, P.C.

Address

3115 MAIN STREET

City & State
Phone

BIRDSBORO, PA

610-404-1123

Zip
Email

19508

RJDOUGHER@BDRPC.COM

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

RECEIVED

CC: DAVID R. DAUTRICH, ESQUIRE & CHARLES DAVID YOUNGER, ESQUIRE

OCT 21 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

DOUGHER & RICE
A PROFESSIONAL CORPORATION

ATTORNEYS AT LAW
(610) 404-1123
READING OFFICE:
ROBERT J. DOUGHER
3115 Main Street
Birdsboro, Pa 19508

EMAIL:
RJDOUGHER@BDRPC.COM

WYOMISSING OFFICE:

TELECOPIER:
(610) 582-0669

Commonwealth Plaza
200 Spring Ridge Drive •
Suite 102
VVyomissing, Pa 19610

REPLY TO: READING OFFICE

October 11, 2019
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: . Colleen A. Easterday v. Estate of Michael J. Easterday
Supreme Court of the United States Case No. 19-354
Dear Sir or Madam:
I represent Matthew M. Easterday, Administrator of the Estate. of Michael J. Easterday,
the Respondent in the above-captioned case.
Please be advised that my client does not intend to file a response to the Petition for Writ
of Certiorari filed in this case unless one is requested by the Court. Accordingly, I enclose a
Waiver to be filed and docketed under the proceedings of this case.
Please contact me should you have any questions.

RJD/ms
Encl.
cc: David R. Dautrich, Esquire
Charles David Younger, Esquire
Michael J. Righi, Esquire

RECEIVED
OCT 21 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

